HHS/OIG, Audit -"Audit of Selected Procurements by Centers for Disease Control
and Prevention Under Contract 200-2005-11531 Sanofi Pasteur, Inc.,"(A-04-06-01024)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Selected Procurements by Centers
for Disease Control and Prevention Under Contract 200-2005-11531 Sanofi Pasteur, Inc.," (A-04-06-01024)
June 15, 2006
Complete
Text of Report is available in PDF format (628 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
As part of the Inspector General's broad evaluation of procurements by departmental components
during relief operations following Hurricanes Katrina and Rita, we audited selected procurements
under Centers for Disease Control and Prevention (CDC) contract 200-2005-11531 with Sanofi
Pasteur, Inc.  Our objectives were to determine whether CDC complied with the Federal
Acquisition Regulation (FAR) while making the involved procurements and accurately computed
amounts charged to the Federal Emergency Management Agency (FEMA) based on the actual
costs incurred.  We found that CDC complied with applicable parts of the FAR while issuing
three delivery orders to Sanofi Pasteur, Inc. for emergency shipments of vaccines to the
Louisiana Department of Health and Hospitals and the Mississippi Department of Health, and
that CDC's claims for reimbursement from FEMA accurately reflected the actual costs incurred.